r

r
No.

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER

FRANTZ STERLIN
(Your Name)

VS.

UNITED STATES OF AMERICA

— RESPONDENT(S)

PROOF OF SERVICE
FRANTZ STERLIN
do swear or declare that on this date,
I,
November 20
j20 20 . as required by Supreme Court Rule 29 I have served

the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party's counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
The Solicitor General of the United States, Room 5614, Department
of Justice, 950 Pennsylvania Ave

• 9

N.W. Washing, DC 20530-0001;

and Office of the Clerk, Supreme Court of the United States,
Washington , DC 20543-0001

I declare under penalty of perjury that the foregoing is true and correct.
Executed on Nov. 2 0 .,2020

djiudr

ObhlCju*
(Signature)

